The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
  OFFICE OF INSPECTOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, DC 20436


November 10, 2010                                                             OIG-HH-030

Chairman Okun:

This memorandum transmits the results of the audit (OIG-AR-11-02) of the Commission’s
financial statements for the fiscal years ended September 30, 2010 and 2009. We contracted
with the independent certified public accounting firm, Castro & Company LLC, to conduct
this audit. The contract required that the audit be conducted in accordance with U.S.
generally accepted government auditing standards.

My office has policies and procedures that are designed to provide assurance that work
performed by non-Federal auditors complies with U.S. generally accepted government
auditing standards. These procedures follow the guidelines provided in the GAO/PCIE
Financial Audit Manual (FAM 650).

In connection with this contract, we reviewed Castro & Company’s report and related
documentation and made inquiries of its representatives. Our involvement in the audit
process consisted of monitoring audit activities; reviewing auditor independence and
qualifications; attending meetings; participating in discussions; and reviewing audit
planning, working papers, conclusions, and results. Our review disclosed no instances where
Castro & Company did not comply, in all material respects, with U.S. generally accepted
government auditing standards. However, our review cannot be construed as an audit in
accordance with the U.S. generally accepted government auditing standards. It was not
intended to enable us to express, and we do not express, any opinion on the Commission’s
financial statements. Castro & Company is solely responsible for the audit report dated
November 8, 2010 and the conclusions expressed in the report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my
staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                   2121 Eisenhower Ave.
                                                                                   Suite 606
                                                                                   Alexandria, VA 22314
                                                                                   Phone: 703.229.4440
                                                                                   Fax: 703.859.7603
                                                                                   www.castroco.com
                                  Independent Auditor’s Report


Inspector General
U.S. International Trade Commission

We have audited the accompanying balance sheet of the U.S. International Trade Commission (ITC)
as of September 30, 2010, and the related statements of net cost, changes in net position, and
budgetary resources for the fiscal year then ended. These financial statements are the responsibility
of ITC management. Our responsibility is to express an opinion on these financial statements based
on our audit.

We were engaged to audit the accompanying balance sheet of the ITC as of September 30, 2009, and
the related statements of net cost, changes in net position, budgetary resources and custodial activity
for the fiscal year then ended. Because of the matters discussed in our Independent Auditor’s Report
dated November 6, 2009, we were unable to express an opinion on the balance sheet as of September
30, 2009, and the related statements of net cost, changes in net position, budgetary resources, and
custodial activity for the fiscal year then ended.

As discussed in Note 14 to the fiscal year (FY) 2010 financial statements, for comparative purposes,
ITC restated numerous line items reflected in the fiscal year 2009 balance sheet, and the related
statements of net cost, changes in net position, and budgetary resources. Management determined a
restatement of certain FY 2009 balances was necessary to correct several of the material errors
identified in our Independent Auditor’s Report on Internal Control dated November 6, 2009.
However, management was unable to correct many of the deficiencies related to undelivered orders,
accounts payable and expenditures. Accordingly, our opinion on the FY 2009 financial statements,
as restated for comparative purposes within the FY 2010 financial statements, does not differ from
that opinion expressed in our previous report dated November 6, 2009.

Except as discussed in the following paragraph, we conducted our audit in accordance with the
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of
the United States; and, Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
financial statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

We were unable to obtain sufficient audit evidence to support ITC’s financial statement amounts as
of and for the fiscal year ended September 30, 2010 for undelivered orders and the related accounts
payable and net position; nor were we able to satisfy ourselves as to the associated balances reported
on the balance sheet and statement of budgetary resources by other auditing procedures. As a result,
Independent Auditor’s Report
Page 2


we were unable to apply auditing procedures necessary to audit in accordance with the standards and
OMB guidance.

In our opinion, except for the effects of such adjustments, if any, as might have been determined to
be necessary had we been able to examine evidence regarding the undelivered orders and the related
accounts payable and net position, the financial statements referred to in the first paragraph above,
present fairly, in all material respects, the financial position of the ITC as of September 30, 2010,
and the related statements of net cost, changes in net position, and budgetary resources for the year
then ended in conformity with accounting principles generally accepted in the United States of
America.

The information presented in the Management's Discussion and Analysis is not a required part of
ITC's financial statements, but is considered supplementary information required by U.S. generally
accepted accounting principles and OMB Circular No. A-136, Financial Reporting Requirements.
The other accompanying information has not been subjected to the auditing procedures applied in
our audit of the basic financial statements and accordingly, we express no opinion on it.

The information presented in the Message from the Chairman and Performance Section is presented
for purposes of additional analysis and is not required as part of the financial statements. However,
we have applied certain limited procedures, which consist principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information. Such
information has not been subjected to auditing procedures, and accordingly, we express no opinion
on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2010, on our consideration of ITC’s internal control over financial reporting and on our
tests of its compliance with certain provisions of laws, regulations and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results
of our audit.




November 8, 2010
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
